       STUDY OF SERVICES AND OUTCOMES:
       YOUTH OFFENDER DEMONSTRATION
           GRANT PROJECTS, ROUND I




  EMPLOYMENT AND TRAINING ADMINISTRATION

____________________________________________________




                                   REPORT NO.: 2E-03-356-0001
                                   DATE ISSUED: March 29, 2002
                                              TABLE OF CONTENTS




ACRONYMS AND GLOSSARY ............................................................................................ ii

EXECUTIVE SUMMARY ......................................................................................................iv

BACKGROUND .......................................................................................................................1

PURPOSE, SCOPE AND METHODOLOGY.........................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................4

          Finding A – Differing Types, Intensity and Duration of Services Influence Project
                      Outcomes ................................................................................................... 4

          Finding B – Youth Are Not Provided with Comparable Opportunities to Stay and
                      Succeed in the Projects. ........................................................................... 11

APPENDICES

    Appendix A – Technical/Methodological Issues ...................................................................15

    Appendix B – Selected Bibliography ...................................................................................24

    Appendix C – Agency Response .........................................................................................26




                                                                i
                        ACRONYMS AND GLOSSARY


ACRONYMS

DOL          United States Department of Labor

ETA          Employment and Training Administration

GED          General Equivalency Diploma

GOTR         Grant Officer’s Technical Representative

OIG          Office of Inspector General

OJJDP        Office of Juvenile Justice and Delinquency Prevention

UI           Unemployment Insurance

YODP         Youth Offender Demonstration Projects


GLOSSARY


Chi-square test                      Statistical test to examine hypotheses about data that
                                     are best summarized by a cross tabulation of two or
                                     more variables.

Criminal Justice Involvement         Incidence or reoccurrence of arrest, probation, and
                                     incarceration either before or during project
                                     participation.

Discriminant Analysis                A function for computing a new variable or index that
                                     will parsimoniously represent the differences between
                                     two or more groups.

Intensity and Duration of Services   Also referred to as “Level of Service.”
                                     None - Did not receive services; may or may not have
                                     filled out application for project.
                                     Low - Received intake services and limited counseling
                                     and employment/educational referrals for less than 3
                                     months.
                                     Medium - Received continuous counseling and
                                     referrals, for 3 to 6 months.


                                            ii
                                    High - Received intake services, employment and
                                    educational counseling and referrals, job development,
                                    training and follow-up for 6 months and over.

Juvenile Justice Involvement        Incidence or reoccurrence of juvenile arrest, probation,
                                    and incarceration either before or during project
                                    participation.

Level of Job Placement              None – Did not receive job placement.
                                    Low – Remained in job placement under 3 months.
                                    Medium – Remained in job placement from 3 – 6
                                    months.
                                    High – Remained in job placement for at least 6 months
                                    continuously.

Pearson’s Correlation Coefficient   Measurement of the strength of the linear association
                                    between two variables, utilizing the actual data values.

Regression Analysis                 A mathematical model which summarizes the overall
                                    relationship between two or more variables.

Statistical Significance            Probability that the difference between two or more
                                    groups of variables is not due to chance; usually
                                    expressed at the 95% confidence level.

Subsidized Employment               Employment placement in which participants’ wage
                                    earnings are paid by the project.

Unsubsidized Employment             Employment placement in which participants’ wage
                                    earnings are paid by the employer.




                                           iii
                                  EXECUTIVE SUMMARY

The Employment and Training Administration (ETA), in a joint venture with the U.S.
Department of Justice, Office of Juvenile Justice and Delinquency Prevention, developed the
Youth Offender Demonstration Projects to provide insights into which strategies are most
effective for preventing or intervening in juvenile crime and providing transitional work
experiences that will lead to long-term employment.

In FY 1999, Congress appropriated $12.5 Million to initiate and develop projects aimed at
youth offenders and youth at risk of participating in gang activity. Grants were awarded in a
first round for a period of 24 months. In FY 2001, $13.9 million was appropriated to continue
10 of the original 14 projects and to expand to 9 other sites. Currently, ETA has $55 Million
earmarked for a third round of Youth Offender grants to begin in FY 2002.

This study focused on the results of a nationwide survey of the ETA Youth Offender
Demonstration Projects, in order to provide ETA management with independent information
regarding project practices and preliminary outcomes. We recognize that the Youth Offender
Demonstration sites are learning laboratories, and that the purpose of these pilot sites is to gain
experience and insight for future rounds. This project may become either a component of the
larger Workforce Investment Act, wherein local boards will voluntarily implement such
projects based upon community needs, or may become a permanent ETA program.

 RESULTS OF STUDY

Analysis of the information and data we gathered, along with our site observations and
interviews, revealed that ETA has developed a demonstration project which has offered a wide
range of types, intensity and duration of services to its participants. Varying intensity and
duration of services resulted in different employment and employability outcomes. Moreover,
grant sites varied in their definitions and practices of termination and activity status, resulting
in the uneven duration of youth participation. We identified areas where ETA can strengthen
its ability to serve project participants. Those areas are identified below.

Finding A: Differing Types, Intensity and Duration of Services Influence Project
           Outcomes

Overall, we found that approximately 24% (or 214) of youth ages 18 – 24 (total sample of 907)
were placed in either subsidized or unsubsidized employment during the grant period. Further
analysis disclosed that these youth had average earnings of $1,409 per quarter, estimated at
$5,637 for a year. Our analysis revealed that participants were three times as likely to find
work as a control group who did not receive project services and that participants’ average
estimated earnings were higher than those of another DOL youth demonstration project.

We determined that the intensity of services provided to youth participants varied across sites
and had direct bearing upon employment, long-term employability and in criminal justice
involvement. Grantees employed a wide range of types and intensity of employment,

                                                iv
educational and related services. The highest level of services produced a thirteen-fold greater
outcome in higher job placements than the lowest level of services provided.

Further, with the same amount of dollars, different sites provided vastly different services.
Those grantee sites that had an infrastructure already set up to work with at-risk youth were
able to combine funding to deliver services more effectively. Our analysis indicated that
overall, 54% of services provided to participants were of medium or high intensity and
duration. We noted that the remainder of services provided were of low intensity and duration
(involving minimal intake and very limited counseling and referral services) or none. Of
participants receiving low services, the vast majority would have benefited from a greater
array, intensity and duration of services.

Additionally, we found that repeat criminal and juvenile justice involvement was affected
primarily by prior criminal involvement and secondarily, by types of services provided.
Further regression analysis revealed that the type of intensive services provided also had an
effect on recidivism rates: practices in one particular site proved effective in monitoring and
deterring criminal justice involvement.

We noted that ETA has been successful in developing and continuing to refine a data reporting
system, reportable by grantees to ETA on a quarterly basis. While service provision,
educational achievement, criminal justice and cumulative job placement numbers were
reported to ETA on a consistent basis during Round I, the reliability of the figures provided by
the demonstration sites should be further monitored and verified by ETA in future rounds using
a variety of administrative and participant case file review methods and interviews.

Finding B: Youth Are Not Provided with Comparable Opportunities to Stay and
           Succeed in the Projects

We found that not all sites provided their participants with comparable opportunities to
succeed in the demonstration, because the policies and practices surrounding enrollment,
activity status, duration of services, and termination of youth from the projects were uneven
and often arbitrarily defined and applied. Our study indicated that clarified policies on
enrollment, activity status, and duration of services would further assist in enhancing service
delivery practices and potential outcomes.

Our review indicated that the definition of an “enrolled” participant varied across sites and
often included no distinction between actual enrollees versus applicants. For actual enrollees,
the majority were inactive in the projects at time of our review. Moreover, the majority of
youth were enrolled a year or later after the start of the grant period and often, participated for
well under one year. Furthermore, some sites had a “no termination” policy; others regularly
terminated or placed participants on inactive status for a wide range of reasons.

Our review indicated that the definition of an “enrolled” participant included no minimal
baseline, with inconsistencies in enrollment numbers attributable in part to a lack of clear
distinction in counting enrollees versus applicants. We also found that over 80% of sampled
participants were not actively receiving services at the time of our review. We counted as
inactive, those youth who had not received services or been in contact with the projects for the

                                                 v
last 90 days. While inactive status does not mean that the participant was never served, we
noted myriad challenges surrounding attendance: individual participants and families often
move out of the area or cannot be reached; truancy is high and school attendance often poor;
youth face problems getting to the projects site; and family and behavioral problems may be
involved. Lack of youth attendance in counseling, training sessions, and employment were
frequently cited as a problem by project managers and counselors.

Some project managers and counselors described the difficulty in undoing a lifetime of
negative influence on a young person and emphasized that the project needed to do more to
counter such influences on youth. These staff and managers employed an intensive approach
of weekly contact and follow-up, whether at the project site, at their school or library, or at
their homes. Others felt that participation in the project could not be enforced and, without
demonstrated youth initiative or interest, counselors could opt to terminate a youth for non-
attendance. Still others felt that an “empowerment” model meant that with proper counseling
and services, youth would be able to “graduate” from the project, often within a year, with a
positive termination.

Promising practices for improved project participation involved the systematic use of
incentives, employed in two of the five sites we visited and associated with improved project
participation, which could be more widely adopted.

RECOMMENDATIONS

We recommend that ETA take the following actions to maximize the effectiveness of service
practices on the intended outcomes and goals of the Youth Offender Demonstration Projects:

1. Analyze data across sites to assess the relationship between project practices, participants’
   services received and project outcomes.

2. Develop and implement in future rounds a strategy for ensuring that the types, intensity and
   duration of services rendered provides project participants with the optimal opportunity to
   succeed in the project. This should include a defined minimal set of services.

3. Verify and monitor educational achievements and job placements currently reported by
   grantees on a quarterly basis, via ETA’s program monitors (GOTRs) through more
   systematic review of participant case files.

4. Develop a clarified and more consistent set of policies and strategies on enrollment. While
   flexibility in locally relevant and innovative services should continue to be encouraged,
   enrollment should include a baseline of minimum services.

5. Verify and monitor services provided, enrollments, and activity status via ETA’s program
   monitors (GOTRs) through more systematic review of participant case files and interviews.

6. Utilize monetary and non-monetary participant incentives, including cash rewards, project
   points, certificates and achievement recognitions to improve project participation and
   outcomes.


                                               vi
 AGENCY RESPONSE AND OIG CONCLUSION

In response to the OIG’s official draft report, ETA generally agreed with our findings and
recommendations. As a result of corrective actions planned or already taken by ETA, we
consider all six recommendations to be resolved. In addition, recommendations 2 and 4 are
closed. The remaining recommendations will be closed after those corrective actions are
completed and appropriate documentation is provided, as specified in the report. The agency’s
complete response is found in Appendix C.




                                             vii
                                          BACKGROUND

The US Department of Labor, in a joint venture with the Office of Juvenile Justice and
Delinquency Prevention of the Justice Department, developed the Youth Offender
Demonstration Projects to provide insights into which strategies are most effective for
preventing or intervening in juvenile crime and providing transitional work experiences that
will lead to long-term employment.

The central goals of the Youth Offender Demonstration Projects (YODP) are to:

        “help youth offenders, gang members and youth at risk of gang involvement between
        the ages of 14 and 24 attain long-term employment at wage levels that will prevent
        future dependency and to break the cycle of crime and juvenile delinquency that
        contributes to recidivism.”
In FY 1999, Congress appropriated $12.5 Million to the Employment and Training
Administration (ETA) to initiate and develop projects aimed at youth offenders and youth at
risk of participating in gang activity. Grants were awarded in a first round for a period of 24
months, beginning in Fall 1999. In FY 2001, $13.9 million was appropriated to continue 10 of
the original 14 projects and to expand to 9 other sites. Currently, ETA has $55 Million
earmarked for a third round of Youth Offender grants to begin in FY 2002.

There are three categories of projects:

(I)     Five operate in large communities and are Model Community Projects awarded $1.5 M
        each in Round I. Grants were awarded to five communities where comprehensive
        community-wide approaches addressing the needs of youth have already been
        established. Grantees provide a combination of services including gang prevention,
        gang intervention, gang suppression, and alternative sentencing.

(II)    Three grants were awarded to juvenile correctional facilities that are developing a
        School-to-Work system, for approximately $1.125 M each in Round I. The projects
        include work-based and school-based learning, job placement, further education, job
        training, and supportive services in the home communities to which youth return when
        they are released from the facilities.

(III)   Six are Community-Wide Coordination projects and operate in very small communities
        (of between 100,000 and 400,000 populations). ETA awarded grants of $300,000
        under this category in Round I. These projects are in areas of high crime and school
        drop-out rates, high unemployment rates, and high levels of gang activity.

Category I and III sites were both funded to provide alternative sentencing and gang prevention
activities, while Category I sites were also funded to provide case management and/or aftercare
services.




                                               1
                                 PURPOSE, SCOPE AND
                                   METHODOLOGY


PURPOSE

This study focused on the results of a nationwide survey of the Employment and Training
Administration’s Youth Offender Demonstration Projects, in order to provide ETA
management with independent information regarding project practices and preliminary
outcomes. We recognized that the Youth Offender Demonstration sites are learning
laboratories, and that the purpose of these pilot sites is to gain experience and insight should
there be interest in either developing the demonstration into a permanent ETA program or in
building a component of it into the larger Workforce Investment Act. We also recognized that
the demonstration projects under this model are aimed at assisting youth in impoverished
communities facing severe problems of high poverty and unemployment and the inter-
relatedness of poverty, juvenile crime, child abuse and neglect, school failure and teen
pregnancy.

The study collected information on the multiple barriers that project participants face in
employment and/or self-sufficiency; the types of employment, educational and related
assessment, readiness, and placement services provided; the effectiveness and efficacy of these
services; and their relationship to the goals of increasing employment/self sufficiency and
reducing recidivism and criminal justice involvement.

SCOPE

Our study questions were as follows:

   § How are youth participants in ETA’s Youth Offender Demonstration Projects being
       educated, trained and placed in employment?

   § How do the projects effectively intervene in youths’ school performance, participation
       in gang activity, and rates of recidivism?

These study questions were designed to assist in understanding how service practices are
linked to potential outcomes, in order to inform and improve upon the process of service
delivery.

METHODOLOGY

We analyzed data from all the Category I (Model Community Projects/large cities) and
Category III (Community-Wide Coordination/small cities) sites from Round I and wage
records maintained by Unemployment Insurance (UI) state offices. We conducted site visit in
the following randomly selected cities: Philadelphia, Pennsylvania; Denver, Colorado;
Bakersfield and Richmond, California; and Knoxville, Tennessee. We also contacted the three
Category II juvenile justice facilities and the US Department of Justice which is coordinating

                                               2
the evaluation effort on two of the three sites. Because those project outcomes may involve
different methodologies, we decided not to evaluate Category II at this time. Utilizing a
stratified random sampling design, we developed two statistical samples, one which consisted
of 322 participant case files from sites visited and the second comprised of 907 participants in
seven of the sites for which UI wage records were available.

Quantitative Methods

Outcome variables were derived from case file record review and administrative data. These
included measures of GED assistance, recidivism, job placement information recorded in
participant files, and wage earnings as reported to the Unemployment Insurance (UI) system
for the last five available quarters. We analyzed intensity of employment services,
employment placement, and UI wages as distinct outcomes and combined the data sources into
scales of intensity of services provided and of job placement (none, low, medium and high).
(See Glossary).

Our analysis examined the following independent variables reported by the projects: age,
gender, ethnicity, criminal justice involvement at the time of entry into the demonstration
project, date of entry, and project site. We were unable to employ a pure experimental design
because the project did not include randomized treatment and control groups. However, we
did impute the difference in employment and wage outcomes between applicants (intake
participants) and enrollees in three sites which tracked both groups, one Category I and two
Category III site. The evaluation employed several non-experimental statistical methods of
bivariate and multivariate analyses including Pearson’s chi-square tests, analyses of variance,
linear and logistic regressions, and discriminant analyses.

Please see Appendix A for more detailed technical and methodological concerns.

Qualitative Methods

We conducted interviews with ETA managers and program monitors (GOTRs), grantee project
managers and staff, including job developers and counselors. We also interviewed a randomly
selected selection of projects participants, who represented a cross-section of ages, gender,
ethnicity and prior criminal justice involvement. At each site, we collected data on
participants, services delivered, outcomes and client satisfaction.

We conducted this study in accordance with the Quality Standards for Inspections published
by the President’s Council on Integrity and Efficiency.




                                                3
                  FINDINGS AND RECOMMENDATIONS

Finding A: Differing Types, Intensity and Duration of Services
           Influence Project Outcomes

We determined that the intensity of services provided to youth participants varied across sites
and had a direct bearing upon employment, long-term employability and in criminal justice
involvement. Our study revealed that even within categories, grantees employed a wide range
of types and intensity of employment, educational and related services. The spectrum of
service offerings across sites ranged from a minimum offering of resume writing and job
referrals to a greater combination of structured job search, remedial education, classroom
vocational or skills training, drug abuse screening and counseling, and on-the-job training
(OJT).

Job Placement Outcomes

The central goal of the Youth Offender Demonstration Projects (YODP) is to help youth
offenders, gang members and youth at risk of gang involvement between the ages of 14 and 24
attain long-term employment at wage levels that will prevent future dependency and to break
the cycle of crime and juvenile delinquency that contributes to recidivism.

We found that approximately 24% (or 214) of youth ages 18 – 24 (total sample of 907) were
placed in either subsidized or unsubsidized employment during the grant period. Further
analysis disclosed that these youth had average earnings of $1,409 per quarter, estimated at
$5,637 for a year.

Figure 1: Universe of Participants Aged 18 – 24 with Reported Post-Enrollment Quarterly Wages
          in 7 Grant Sites

 Category/City          Population     Number of       % of All         Quarterly Wages
                        of             Participants    Participants     Per Participant
                        Participants   with Earnings   with Earnings
                        Aged 18-24
 Category I City A          167             67              40%               $1,372
 Category I City B          108             30              28%               $1,406
 Category I City C           43             10              23%                $711
 Category I City D          121             35              29%               $1,812
 Category IIII City E       185             24              13%               $1,414
 Category III City F        173             38              22%               $1,007
 Category III City G        110             10              9%                 $1,927
 Averages and Totals,       907             214             24%               $1,409
 7 cities




                                                  4
Youth Were Placed in A Wide Range of Subsidized and Unsubsidized Job Types

From both administrative data on employment provided by the states and through our survey of
five sites, we found that youth were placed in a wide range of subsidized (with earnings paid
by the grantee agency) and unsubsidized (with earnings paid by private employers) job types:

                        Figure 2: Job Placements By Occupational Categories



                                               CARE
                           JANITORIAL
                                              SERVICE
                              12%
                                                8%
                          FOOD
                         SERVICE
                           16%                         CLERICAL
                                                         32%
                        DELIVERY
                        SERVICE
                          10%                       CONSTRUC-
                                                      TION
                                 RETAIL                2%
                                  20%



Youth were motivated to seek employment and earnings for a variety of reasons: the
majority of youth of all ages we spoke with did not live on their own, yet most
expressed an interest in becoming more self-sufficient; in gaining job experience; and
in furthering career development. Others had young children to support or had to pay
off restitution for property crimes committed. Job placements were made primarily to
provide youth with job experience, and also to match participants with their expressed
occupational interests and career goals.

Job Placement Outcomes Were Influenced By Levels of Service

We surveyed the relationship between levels (intensity and duration) of services provided and
job placement outcomes. As shown by Figure 3, there is a significant relationship between
greater intensity and duration of services offered and job placement outcomes, with differences
not attributable to chance. The highest intensity and duration of services, with continual
services offered weekly or biweekly for at least six months, produced a thirteen-fold greater
outcome in higher job placements than minimal service provision of assessment and intake and
limited counseling and referrals lasting less than three months. Our analysis revealed that the
differences were statistically significant at the 95% confidence level (with less than 5% of
variation attributable to chance).




                                                5
                           Figure 3: Job Placements and Intensity of Employment Services



                                                                        27%
     high service=6 mos+




                                         8%                                       high job=6mos+
     med service=3-6 mos                                                          med job=3-6 mos
                                                                                  low job=< 3 mos


                                2%
      low service=<3 mos




                       0%                10%             20%             30%


Our analysis further revealed that job placements were associated with the project’s success in
diverting youth from criminal involvement during project enrollment. Youth who got in
trouble during project enrollment were not placed in jobs at comparable levels as those who
managed to stay out of trouble. (The differences between the two groups were statistically
significant at the 95% confidence level.)

Levels of Services Varied Across Sites

Our analysis indicated that over 46% of services provided across observed sites were low
(involving minimal intake and limited counseling and referral services) or none, when in fact
the overwhelming majority of those participants could have benefited from a greater array,
intensity and duration of services. These were followed by a 34% share of high services
(continuous services and at least bimonthly meetings), with 20% of services of moderate
intensity and duration.

We discovered that with the same amount of dollars, different sites provided vastly different
services. Those grantee sites that had an infrastructure already set up to work with at-risk
youth were able to combine funding and resources to deliver services more effectively.
Category I sites included one private non-profit organization, contracted by the City
government, which had provided youth-oriented services for over thirty years. This site
offered a range of intensive services offered, including computer classes, GED training, life
skills, drug testing, and strong networks of referrals and consistent follow-up. On the other end
of the spectrum, another privately contracted organization funded under Category I offered
limited job counseling and weak referral and follow-up services for its youth participants.

The spectrum of differences within Category III Community Partnership sites included one site
which offered limited assistance with employment counseling, resume building and job
referrals, and lacked strong follow-up services or actual job development. By contrast, other


                                                        6
Category III sites provided comprehensive, consistent counseling and differing ranges of
educational, mental health and accompanying referrals.

Initial and Repeat Criminal Justice Involvement were Affected by Prior Involvement in
the Criminal Justice System and by Types of Service Provided

A numeric analysis of arrests and other criminal justice involvement after enrollment yielded a
low count of 17 incidents in our sample of 322 participants (5%). However, this figure is not a
reliable indicator of recidivism rates, because many youth are already on probation or are
currently serving time in alternative sentencing. Moreover, many demonstration sites have not
effectively monitored for the information. A comparison of the 17 instances of justice
involvement during project enrollment with other enrollees, revealed that the primary
distinction between those who became involved or re-involved with criminal activity and those
who were not were prior convictions:

       Of those who became involved in criminal activity during the demonstration period, the
       majority (81%) had previously been involved with the criminal justice system,
       including arrests and probation. By contrast, less than half (48%) of those who did not
       become involved with the criminal justice system had previously been in trouble with
       the law.

A logistic regression of criminal justice involvement indicated that a variety of variables—
high, medium, and low services and job placements included—had no noticeable effect on
recidivism. Aside from prior convictions, only one other variable had a significant effect on
recidivism:

       One Category I site which was observed to offer intensive services focused on
       counseling, mentorship and gang prevention, demonstrated a significant effect on
       preventing criminal involvement and recidivism during project enrollment. The effect
       was statistically significant at the 95% confidence level (with less than 5% of
       differences attributable to chance).

The statistical analyses indicate that while criminal justice involvement and/or recidivism
during the project period is most significantly affected by a prior history of criminal justice
involvement, types of service provided were also associated with the a lower incidence of
criminal justice involvement during project enrollment.

These findings corroborate our observations, which indicated the efficacy of certain practices
in monitoring criminal justice involvement. Some sites worked closely with other institutions,
such as schools and probation departments, and had access to youths’ activities and
achievements. Participant files in these sites included probation officers’ notes, school
attendance records, and academic test scores, as well as documentation of the counselors’
ongoing assessment of participants’ activities and progress. The counselors in these sites had
the knowledge and ability to monitor truancy and criminal/gang activity, and successful
employment activity.




                                                 7
The Collection of Administrative and Project Data Can Be Improved


We noted that ETA has been successful in developing and continuing to refine a data reporting
system, reportable by grantees to ETA on a quarterly basis. While enrollment, service
provision, educational achievement, criminal justice and cumulative job placement numbers
were reported to ETA on a consistent basis in Round I, the reliability of the figures provided by
the project sites should be further monitored and verified by ETA in future rounds using a
variety of administrative and participant case file review methods:

       a. ETA’s program monitors (GOTRs) should verify and monitor educational
          achievements and job placements which are currently being reported on a quarterly
          basis to ETA, through more systematic review of participant case files.

       b. Future grantee sites should also maintain intake files on non-enrollees, for purposes
          of comparative research and evaluation on the effects of participation.

The additional steps in data collection and verification should involve a minimal time and cost
burden and is useful in 1) monitoring the accuracy of data at the site level and 2) gauging
project impact in the future.

Grantees further spoke of the need for better understanding and advancing the state of research
on factors which contribute to recidivism and successful long-term employment. One project
manager spoke of developing a tracking database which could identify and highlight “triggers”
of recidivism, through the development of further methods of tracking participants’ lifestyles
and activities, such as measures of mental health, family involvement, and educational
participation. Future project and outcome/impact evaluations could assist in this effort by
analyzing data across sites to assess the relationship between participants’ recidivism, services
received, and project outcomes.

Comparison of YODP with Another Youth Job Training Demonstration Project and
with Control Group of Non-Participants

Our analysis of wage earnings revealed that participants’ average estimated earnings of $5,637
were higher than those of another DOL youth demonstration project, the Youth Opportunity
Grant Program, for which youth with reported earnings totaled $4,217 on average for each
program year.

A comparison of YODP participation in three sites for which data was available revealed that
project participation had a positive effect on labor market participation, in comparison with a
control group of non-participants. Older youth participants’ labor market participation was
three times greater (24%) than that of a control group of youth who were assessed but received
no services from the projects (8%). Overall, enrollees also participated in sustained
employment rates for at least six months at an almost two-fold higher rate (11%) than the
control group (6%) during the project period.




                                                8
Summary

Overall, we found that approximately 24% (or 214) of youth ages 18 – 24 (total sample of 907)
were placed in either subsidized or unsubsidized employment during the grant period. Further
analysis disclosed that these youth had average earnings of $1,409 per quarter, estimated at
$5,637 for a year. Our analysis revealed that participants’ average estimated earnings were
higher than those of another DOL youth demonstration project and that participants were three
times as likely to find work as a control group who did not receive project services.

We found that intensity and duration of services influenced job placements, with higher
services producing the best job outcomes. Levels of services were significantly affected by
site and category differences, with grantees employing a wide range of types and intensity of
employment, educational and related services. While more intensive levels of service did not
always produce immediate job placement outcomes, overall, the highest levels of service
yielding a thirteen-fold greater share of high job placements.

Our analysis indicated that 54% of services received were of medium or high intensity and
duration. We noted that the remainder of services provided were of low intensity and duration
(involving minimal intake and very limited counseling and referral services) or none. Of
participants receiving low services, the vast majority would have benefited from a greater
array, intensity and duration of services.

Grantees spoke of the need for better understanding and advancing the state of research on
factors that contribute to successful long-term employment and recidivism. Further project and
outcome/impact evaluations could assist in this effort by analyzing data across sites to assess
the relationship between services received and project outcomes.
.

RECOMMENDATIONS
We recommend that ETA:

1. Analyze data across sites to assess the relationship between project practices, participants’
   services received and project outcomes.

2. Develop and implement in future rounds a strategy for ensuring that the types, intensity and
   duration of services rendered provides project participants with the optimal opportunity to
   succeed in the project. This should include a defined minimal set of services.

3. Verify and monitor services provided, educational achievements and job placements
   currently reported by grantees on a quarterly basis, via ETA’s program monitors (GOTRs)
   through more systematic review of participant case files.




                                                9
 ETA’s Response to Recommendations

 (1)   “In demonstrations, it is difficult to compare one site to another, especially when
       different rounds of the experiment (as in the case of the Youth Offender demonstrations)
       have different project service requirements. However, ETA agrees to incorporate this
       type of analysis into future evaluations of the Youth Offender Demonstration Projects.”

 (2)   “ETA already has identified a minimum set of reentry services, beyond WIA and Wagner-
       Peyser Act tailored services available at the local One-Stop centers, which has been
       found to help youth offenders and at-risk youth. This set of reentry services includes
       gang prevention, alternative sentencing, case-management (route counseling), and
       aftercare services. To complement locally-based service strategies in each area, ETA
       required in Round Three grants (SGA/DFA 01-109) that applicants provide these
       minimal reentry services along with other appropriate workforce development services
       for youth offenders and at-risk youth. Please know that these reentry services are in
       addition to those services required in Rounds One and Two.”

(3)    “ETA agrees to this recommendation and will conduct more frequent reviews of
       grantees’ services and achievements through a systematic assessment by federal project
       officers of grantees’ quarterly progress and data reports. (ETA initiated this quarterly
       reporting system for Youth Offender Demonstration Project grants in the summer of
       2000.) ETA also agrees to review this issue in its forthcoming Youth Offender
       Demonstration Project federal review guide, which will include a careful analysis of at
       least three to five case records per monitoring visit.”

 OIG’s Conclusion

 We concur with the proposed corrective actions and consider recommendations 1 through 3
 resolved and recommendation 2 closed. Specifically:

        -   Recommendation 1 will be closed pending receipt of documentation from ETA that
            upcoming evaluations of future rounds will incorporate analyses of project
            practices, services received and project outcomes.

        -   Recommendation 2 is closed, based on ETA’s identification of a minimum set of
            reentry services and the requirement in Round Three grants that applicants provide
            these minimal services for youth offenders and at-risk youth.

        -   Recommendation 3 will be closed pending receipt of documentation that more
            frequent, systematic reviews of grantees’ services and achievements are being
            conducted, as required review protocol included in ETA’s March 2002 Federal
            Review Guide.

 Please submit the requested written documentation for recommendations 1 and 3 by no later
 than September 30, 2002.




                                               10
Finding B: Youth Are Not Provided with Comparable
           Opportunities to Stay and Succeed in the Projects


We found that not all sites provided their participants with comparable opportunities to
succeed in the demonstration, because the policies and practices surrounding enrollment,
activity status, duration of services, and termination of youth from the projects were uneven
and often arbitrarily defined and applied. Our review indicated that the definition of an
“enrolled” participant varied across sites and often included no distinction between actual
enrollees versus applicants. For actual enrollees, the majority were inactive in the projects at
time of our review. Moreover, the majority of youth were enrolled a year or later after the start
of the grant period and often, participated for well under one year. Furthermore, some sites
had a “no termination” policy; others regularly terminated or placed participants on inactive
status for a wide range of reasons.

Enrollment Figures Are Inconsistently Reported

Our review indicated that the definition of an “enrolled” participant included no minimal
baseline. For example, in a few instances, participants who did not receive services (no case
file opened) were considered “enrolled.” While the demonstration nature of the projects
allowed a good degree of project flexibility, future rounds could benefit from clearer criteria
for enrollments.

We determined that possible inconsistencies in enrollment numbers were attributable in part to
a lack of clear distinction in counting enrollees versus applicants, as was the case in three of
the five cities we visited. Individuals were often referred to the project but did not receive in-
depth assessments or other employment and educational services. While we included intake
assessment in the category of “minimal service provision,” we noted that in many instances
intake assessment was neither in-depth nor was feedback or referrals provided to the youth. In
the majority of sites, either intake participants were not tracked or intake participants were also
counted as enrollees.

The Majority of Participants Are Inactive

Our review of case files revealed that the majority of youth were enrolled a year or later after
the start of the grant period and often, participated for well under one year. Over 80% of
sampled participants were not actively receiving services at the time of our review. We
counted as inactive, those youth who had not received services or been in contact with the
project for the last 90 days. While inactive status does not mean that the participant was never
served, we noted a myriad of challenges surrounding attendance: individual participants and
families often move out of the area or cannot be reached; truancy is high and school attendance
often poor; youth face problems getting to the project site; and family and behavioral
problems. Youth attendance in counseling, training sessions, and employment were frequently
cited as a problem by project managers and counselors.

Some project managers and counselors described the difficulty in undoing a lifetime of
negative influence on a young person and emphasized that the project needed to do more to


                                                11
counter such influences on youth. These staff and managers employed an intensive approach
of weekly contact and follow-up, whether at the project site, at their school or library, or at
their homes. Others felt that participation in the project could not be enforced and, without
demonstrated youth initiative or interest, counselors could opt to terminate a youth for non-
attendance. Still others felt that an “empowerment” model meant that with proper counseling
and services, youth would be able to “graduate” from the project, often within a year, with a
positive termination.

Terminations Are Inconsistently Applied

Terminations of project participants before the end of the grant period occurred at significantly
different rates across grant sites, ranging from no terminations to upwards of 50%. We found
that not all sites provided their participants with a comparable shot at succeeding in the project,
because the policies and practices surrounding termination of youth from the project were
uneven and often arbitrarily defined and applied.

Terminations are necessary in certain circumstances: for instance, a youth may have been
arrested and sentenced to three years in prison; or, a parent may have objections to their child’s
continued participation. Moreover, some youth sometimes verbally declined to continue with
project participation. However, we noted that there were many terminations that were neither
necessary nor sufficiently justified. In one city, participants were terminated from the project
for non-attendance at two orientations, even if they had not previously agreed to attend and
there was no verification that they received the invitations via phone or mail. In instances
where strategic planning on enrollment was not comprehensively conducted, wholesale
terminations of students often occurred in the interest of administrative efficiency and the
development of more realistic caseworker loads.

Because the demonstration nature of the projects tends to emphasize processes rather than
outcomes, it is understandable that the practice of terminations has not been uniformly
addressed. However, our study indicated that clarified policies on enrollment, activity status,
and duration of services would further assist in enhancing service delivery practices and
potential outcomes.

The Use of Incentives Appears to Improve Project Participation

Promising practices for improved project participation which were implemented in some sites
included the use of incentives, such as the use of a wide range of monetary and non-monetary
participant incentives. Incentives included cash rewards, project points, gift certificates, and
achievement recognitions. These practices, observed in two of the five sites we visited,
appeared more effective in encouraging participant retention and individual performance than
the threat of terminations. The systematic use of incentives observed in these sites, which
demonstrated consistent and continued project participation, could be more widely adopted by
other sites.




                                                12
 Summary

 In summary, youth are not provided with comparable opportunities to stay and succeed in the
 demonstration projects. Our review indicated that the definition of an “enrolled” participant
 varied across sites and often included no distinction between actual enrollees versus applicants.
 For actual enrollees, the majority were inactive in the projects at time of our review. Activity
 status is unevenly and often arbitrarily decided and terminations are inconsistently applied.
 The demonstration projects could benefit in future rounds from clearer guidelines and possibly
 a minimal baseline for duration of project participation and for project activity status.
 Enrollments, duration of project participation and activity status should be clarified and
 planned as inter-related policies and practices.

 Our findings indicate that future rounds of grants may benefit from clearer monitoring of
 enrollments, duration of participation, and activity status, which in turn will assist the in
 developing more accurate assessments of outcomes including labor market participation and
 wages.

 RECOMMENDATIONS

 We recommend that ETA:

 4.     Develop a clarified and more consistent set of policies and strategies on enrollment.
        While flexibility in locally relevant and innovative services should continue to be
        encouraged, enrollment should include a baseline of minimum services.

 5.     Verify and monitor services provided, enrollments, duration of participation, and
        activity status via ETA’s program monitors (GOTRs) through more systematic review
        of participant case files and interviews.

 6.     Utilize monetary and non-monetary participant incentives, including cash rewards,
        program points, gift certificates, and achievement recognitions to improve project
        participation and outcomes.




ETA’s Response to Recommendations

 (4)    “ETA already has distinguished between “recruitment” and “enrollment” in the data
        elements for round two and future rounds (see attached project-required data
        elements). In addition, future grants will provide the enhanced services of gang
        prevention, alternative sentencing, and case management and aftercare services as a
        complement to existing locally relevant services.”


 (5)    “ETA agrees to this recommendation and will conduct more frequent reviews of
        grantees’ enrollments, terminations, and activity status through a systematic


                                                13
         assessment by federal project officers of grantees’ quarterly progress and data reports.
         ETA also agrees to review this issue through a careful analysis of at least three to five
         case records per monitoring visit via the forthcoming Youth Offender Demonstration
         Project federal review guide.”


(6)      “ETA agrees with the recommendation and will explore this issue further in its federal
         review guide. In addition, in future rounds ETA will consider incorporating an
         incentive protocol into the demonstration solicitations to test its efficacy.”


OIG’s Conclusion


We concur with the proposed corrective actions and consider recommendations 4 through 6
resolved and recommendation 4 closed. Specifically:

         -   Recommendation 4 is closed, based on ETA’s identification of “recruitment” and
             “enrollment” in the data elements for round two and future rounds in its project-
             required data elements and in its March 2002 Federal Review Guide.

         -   Recommendation 5 will be closed pending receipt of documentation from ETA that
             more frequent, systematic reviews of grantees’ enrollments, terminations, and
             activity status are being conducted, as required review protocol included in ETA’s
             March 2002 Federal Review Guide.

         -   Recommendation 6 will be closed pending receipt of documentation from ETA that
             incentive protocol has been explored, and if appropriate, incorporated into the
             demonstration solicitations for future rounds.

Please submit the requested written documentation for recommendations 5 and 6 by no later than
September 30, 2002.




                                                14
         APPENDIX A

Technical/Methodological Issues




              15
          I. Bivariate Correlations

          Crosstabulation of two variables was employed to look for statistically significant differences not attributable
          to chance. Pearson’s correlation coefficient measures the strength and direction of the relationship.

                                                                   Correlations

                        DOB UIWAGESETHNIC                 SITE GENDR RECIDGEDPRIOR     GEDASSISACTIVPRIORCNV        LOS JOBPLACE  CATSITE
DOB     Pearson Correlation 1   .090    .083              -.027   -.079    .076  -.043     .017    .034    .068     -.029   -.005   -.047
        Sig. (1-tailed)      .  .337    .084               .325    .094    .102   .238     .387    .283    .127      .315    .465    .216
        N                  279    24     279                279     279     279    279      279     279     279       279     279     279
UIWAGESPearson Correlation.090     1   -.249               .333   -.111    .238  -.011     .272    .097   -.040     -.252    .586** -.223
        Sig. (1-tailed)   .337     .    .121               .056    .303    .131   .480     .099    .325    .427      .117    .001    .147
        N                   24    24      24                 24      24      24     24       24      24      24        24      24      24
ETHNIC Pearson Correlation.083 -.249       1              -.312** .265** -.039    .063     .010    .107*   .016      .150**  .021   -.232**
        Sig. (1-tailed)   .084  .121       .               .000    .000    .246   .130     .426    .028    .389      .004    .356    .000
        N                  279    24     319                319     319     319    319      319     319     319       319     319     319
SITE    Pearson Correlation
                         -.027  .333   -.312**                1    .081   -.053   .034     .157** .031    -.036     -.267** -.095* .589**
        Sig. (1-tailed)   .325  .056    .000                  .    .074    .173   .270     .002    .292    .260      .000    .044    .000
        N                  279    24     319                319     319     319    319      319     319     319       319     319     319
GENDR Pearson Correlation-.079 -.111    .265**             .081       1    .001  -.092    -.085   -.065    .237**    .047   -.066   -.103*
        Sig. (1-tailed)   .094  .303    .000               .074       .    .492   .050     .064    .124    .000      .202    .121    .033
        N                  279    24     319                319     319     319    319      319     319     319       319     319     319
RECID Pearson Correlation .076  .238   -.039              -.053    .001       1  -.055    -.003   -.056    .151**    .024   -.054   -.004
        Sig. (1-tailed)   .102  .131    .246               .173    .492       .   .166     .476    .159    .003      .335    .170    .470
        N                  279    24     319                319     319     319    319      319     319     319       319     319     319
GEDPRIORPearson Correlation
                         -.043 -.011    .063               .034   -.092   -.055      1     .397** .154** -.092      -.059   -.024   -.048
        Sig. (1-tailed)   .238  .480    .130               .270    .050    .166      .     .000    .003    .051      .145    .337    .196
        N                  279    24     319                319     319     319    319      319     319     319       319     319     319
GEDASSISPearson Correlation
                          .017  .272    .010               .157** -.085   -.003   .397**      1    .151** -.163**   -.171** -.001    .063
        Sig. (1-tailed)   .387  .099    .426               .002    .064    .476   .000        .    .003    .002      .001    .496    .131
        N                  279    24     319                319     319     319    319      319     319     319       319     319     319
ACTIV Pearson Correlation .034  .097    .107*              .031   -.065   -.056   .154** .151**       1   -.166**   -.156** -.061    .116*
        Sig. (1-tailed)   .283  .325    .028               .292    .124    .159   .003     .003       .    .001      .003    .140    .019
        N                  279    24     319                319     319     319    319      319     319     319       319     319     319
PRIORCNVPearson Correlation
                          .068 -.040    .016              -.036    .237** .151** -.092    -.163** -.166**     1      .031    .013   -.022
        Sig. (1-tailed)   .127  .427    .389               .260    .000    .003   .051     .002    .001        .     .293    .407    .348
        N                  279    24     319                319     319     319    319      319     319     320       320     320     320
LOS     Pearson Correlation
                         -.029 -.252    .150**            -.267** .047     .024  -.059    -.171** -.156**  .031         1    .021   -.307**
        Sig. (1-tailed)   .315  .117    .004               .000    .202    .335   .145     .001    .003    .293         .    .352    .000
        N                  279    24     319                319     319     319    319      319     319     320       320     320     320
JOBPLACEPearson Correlation
                         -.005  .586** .021               -.095* -.066    -.054  -.024    -.001   -.061    .013      .021       1   -.194**
        Sig. (1-tailed)   .465  .001    .356               .044    .121    .170   .337     .496    .140    .407      .352       .    .000
        N                  279    24     319                319     319     319    319      319     319     320       320     320     320
CATSITE Pearson Correlation
                         -.047 -.223   -.232**             .589** -.103* -.004   -.048     .063    .116*  -.022     -.307** -.194**     1
        Sig. (1-tailed)   .216  .147    .000               .000    .033    .470   .196     .131    .019    .348      .000    .000       .
        N                  279    24     319                319     319     319    319      319     319     320       320     320     320
 **.Correlation is significant at the 0.01 level (1-tailed).
 *.Correlation is significant at the 0.05 level (1-tailed).


           N = total number of observations for each variable pair.

                                                                                  16
II. CrossTabulations

Crosstabulation of variables was employed to look for patterned relationships between variables not
attributable to chance. The Pearson chi-square statistic measures the significance of association between
two variables.

         A. Job Placement by Level of Service

                                               Case Processing
                                               Summary
                                                                       Cases
                                        Valid                          Missing                    Total
                                  N                Percent        N          Percent        N             Percen
            JOBPLACE *                309            99.7%             1        .<1%            310       t 100.0
            LOS                                                                                             %


                                               LEVEL OF SERVICE

                                 no service         low service medium service         high service

               low job                 0                 1                 2                6
               medium job              0                 7                 7               22
               high job                0                 3                 5               29
               none/unknown           19                116                50              51

               total                  19                127                63             108



                                 Chi-Square
                                 Tests
                                                                  Asymp. Sig.
                                   Value               df          (2-sided)
            Pearson Chi-Square      71.38      a             16           .000
             Likelihood Ratio       4
                                    29.27                    16            .022
             Linear-by-Linear
                                      2
             Association               3.878                 1             .049

            N of Valid                  310
            Cases
                 .

         N = total number of observations for each variable pair.




                                                                  17
B. Level of Service by Site
                                           Case Processing Summary

                                                                   Cases
                             Valid                                 Missing                                   Total
                         N        Percent                        N       Percent                       N             Percent
  LOS * SITE               314      98.1%                           6       1.9%                           320        100.0%

                                       LOS * SITE
                                       Crosstabulation
  Count
                                                                SITE
                            Cat I Site I       Cat III Site I      Cat I Site II     Cat III Site II             Total
  LOS        None                      2                   3                                      8                   13
             Low                      5                     7                12                105                  129
             Medium                  10                    18                30                  6                   64
             High                    52                    17                38                  1                  108
  Total                              69                    45                80                120                  314

                                           Chi-Square Tests

                                                                                      Asymp. Sig.
                                             Value                     df              (2-sided)
   Pearson Chi-Square                          220.875 a                         9               .000
   Likelihood Ratio                            251.728                           9               .000
   Linear-by-Linear
                                               124.776                           1                 .000
   Association
   N of Valid Cases                                314
       a. 4 cells (25.0%) have expected count less than 5. The
          minimum expected count is 1.86.




III. Discriminant Analyses

Discriminant function analysis, a.k.a. discriminant analysis or DA, is used to classify cases into
the values of a categorical dependent, usually a dichotomy. If discriminant function analysis is
effective for a set of data, the classification table of correct and incorrect estimates will yield a
high percentage correct. Here, discriminant analysis is used to:

   •      Investigate differences between groups.
   •      Determine the most parsimonious way to distinguish between groups.
   •      Discard variables that exhibit few distinctions among groups.




                                                                            18
A. Job Placement

               Analysis Case Processing Summary

  Unweighted Cases                                  N          Percent
  Valid                                                 109        34.1
  Excluded Missing or out-of-range
                                                        210        65.6
            group codes
            At least one missing
                                                          0           .0
            discriminating variable
            Both missing or
            out-of-range group codes
                                                          1           .3
            and at least one missing
            discriminating variable
            Total                                       211        65.9
  Total                                                 320       100.0



                        Tests of Equality of Group Means

                   Wilks'
                  Lambda             F            df1            df2         Sig.
  ACTIV               .989            .614               2          106        .543
  LEVSVC              .970           1.648               2          106        .197
  RECID               .916           4.831               2          106        .010
  GENDR               .999            .068               2          106        .934
  SITE                .944           3.117               2          106        .048
  ETHNIC              .991            .475               2          106        .623
  PRIORCNV            .997            .149               2          106        .862
  GEDASSIS            .953           2.636               2          106        .076
  GEDPRIOR            .984            .840               2          106        .435

Analysis 1
Stepwise Statistics
                                                                           a,b,c,d
                                                     Variables
                                                     Entered/Remov
                                                                Wilks'
                                                                Lambda                    Exact
 Step                Statistic
          Entered                      df1         df2           df3      Statistic   df1 F      df2     Sig
 1       RECID              .91            1            2       106.00         4.83       2     106.00   . .01
 At each step, the variable 6that minimizes the overall Wilks' Lambda
                                                                0              1
                                                                       is entered.              0          0
    a. Maximum number of steps is 18.
    b. Minimum partial F to enter is 3.84.
    c. Maximum partial F to remove is 2.71.
    d. F level, tolerance, or VIN insufficient for further computation.




                                                          19
                Variables in the Analysis

    Step                         Tolerance       F to Remove
    1         RECID                  1.000              4.831


  We employed several measures in the study in order to learn which one(s) offer the best
  prediction, in order to determine the ones that discriminate between groups. In our stepwise
  discriminant function analysis, we built a model of discrimination step-by-step. Specifically, at
  each step all variables were reviewed and evaluated to determine which one will contribute
  most to the discrimination between groups. That variable will then be included in the model,
  and the process starts again. Our discrimination model yielded recidivism as the one factor
  which had an effect on job placement.

IV. Regressions

  Regression Analyses were employed to summarize the overall relationship between two or
  more variables.

  Logistic regression is a form of regression used when the observed outcome is restricted to
  two values, which usually represent the occurrence or non-occurrence of some outcome event,
  (usually coded as 1 or 0). The predicted values of the dependent variable can be expressed as
  the probability of the joint occurrence of a specific number of events.

  A. Logistic Regression of Site on Level of Service
                 Variables
                 Entered/Removed
                Variables       Variable
    Mode         Entered        sRemove                     Method
    l1          Cat I, Site II,  d
                Cat II, Site I                     .      Enter
                ,Cat II, Site II
       a. All requested variables
          entered.
       b. Dependent Variable: Level of Service


                                   Model
                                   Summary
                                                   Adjuste            Std. Error
    Mode            R              R               d
                                                   R                  of
                                                                      the
    l1               .333 a        Square
                                       .111        Square
                                                        .102          Estimate.831
       a. Predictors: (Constant), Cat I, Site II, Cat III, Site I, Cat III, Site II




                                                                       20
                                                       ANOVA

                                    Sum
  Mode                              of
                                    Square             df            Mean                    F           Sig.
  l1         Regression             s 27.16                  3       Square9.055             13.12         .000 a
             Residual                 5
                                     218.02               316                    .690        4
            Total                3
                                 245.18                   319
                                 7
     a. Predictors: (Constant), Cat I, Site II, Cat III, Site I, Cat III, Site II
     b. Dependent Variable: LOS



                                                Coefficientsa

                                                                 Standard
                                                                 i zed
                                     Unstandardize               Coefficie
                                     d Coefficient               n ts
  Mode                               Bs        Std.                  Beta                 t          Sig.
  l1   (Constant)                    3.190 Error.091                                    35.20          .000
           Cat III Site                                                                 4-2.255
           I                         -.346          .153               -.137                           .025
           Cat III Site II           -.348          .118               -.193            -2.946         .003
           Cat I Site II              .381          .134                .180             2.834         .005




The results of the Logistic Regression of site against level of service revealed statistically
significant differences between levels of service provided by site, corroborating the results of
the earlier crosstabulation. (Category I, Site I is the excluded category against which
comparisons are made). The logistic regression further indicates that Category III sites
generally provided lower levels of services, as indicated by the negative Beta coefficients.

B. Logistic Regression of Recidivism

                             Case Processing Summary
                             a
  Unweighted Cases                                               N             Percent
  Selected Cases                 Included in Analysis                319           99.7
                                 Missing Cases                         1             .3
                                 Total                               320         100.0
  Unselected Cases                                                     0             .0
  Total                                                              320         100.0
     a. If weight is in effect, see classification table for the total
        number of cases.




                                                                   21
 Dependent Variable Encoding

 Original Value      Internal Value
 No                               0
 Yes                              1



Block 0: Beginning Block

                                            Classification Table

                                                                               Predicted
                                                                                            Percentage
                                                                       RECID
           Observe                                                No           Yes           Correct
 Step      d
           RECID                      No                            302              0            100.0
 0                                    Yes                           17               0                 .0
          Overall                                                                                 94.7
          Percentage
    a. Constant is included in the model.
    b. The cut value is .500.


                                           Variables in the Equation

                              B                 S.E.      Wald            df             Sig.      Exp(B)
 Step 0    Constant          -2.877               .249   133.232               1           .000       .056


                                Variables not in the Equation
                                                         Score            df             Sig.
 Step     Variable               GEND                       .000               1           .983
 0        s                      R
                                 PRIORC                    7.270               1           .007
                                 NV
                                 Cat III Site I             .186               1           .666
                                Cat III Site II             .053               1           .818
                                 Cat I Site I              2.704               1           .100
                             M MEDIUM                       .979               1           .323
                                 LOW                        .004               1           .949
                                 HIGH                       .158               1           .691
                                 SUCCESS                    .413               1           .520
          Overall                                         16.20                9           .063
          Statistics                                      4
Block 1: Method = Enter
          Omnibus Tests of Model Coefficients

                       Chi-square            df          Sig.
 Step 1    Step            18.694                  9       .028
           Block           18.694                  9       .028
           Model           18.694                  9       .028




                                                          22
                      Model Summary

              -2 Log         Cox & Snell     Nagelkerke
  Step      likelihood        R Square        R Square
  1            114.071             .057             .167

                                           Classification Tablea

                                                                              Predicted

                                                                       RECID                Percentage
            Observed                                               No        Yes             Correct
  Step 1    RECID                    No                              302         0               100.0
                                     Yes                              17         0                   .0
            Overall Percentage                                                                     94.7
     a. The cut value is .500


                                           Variables in the Equation

                                 B            S.E.         Wald          df               Sig.     Exp(B)
  Step
   a
           GEND                   .256          .377         .462              1            .497       1.292
  1        R
           PRIORC                -2.073         .683            9.223          1            .002          .126
           NV
           Cat III Site II        .239          .795            .091           1            .763       1.271
           Cat III Site I        -1.214        1.012            1.439          1            .230        .297
           Cat I Site I          -2.351        1.127            4.346          1            .037        .095
           MEDIUM                5.755        22.39             .066           1            .797     315.90
           LOW                   5.981        5
                                              22.38             .071           1            .789     3
                                                                                                     395.99
           HIGH                  5.823        6
                                              22.39             .068           1            .795     4
                                                                                                     338.06
                                 -.576        5 .710            .660           1            .417     7 .562
           SUCCESS
           Constant              -5.360       22.42             .057           1            .811          .005
                                              2



The results of the Logistic Regression of recidivism against a variety of other independent
variables highlighted two variables which affected criminal involvement or reinvolvement
during the project period: prior convictions and Category I Site I. The logistic regression
indicates that various levels of service, per se, had no effect on recidivism or criminal
involvement. Rather, a record of prior criminal involvement increases the probability of
criminal re-involvement during the project period, and that Category I Site I was effective in
reducing criminal involvement and re-involvement.




                                                           23
 APPENDIX B

  SELECTED
BIBLIOGRAPHY




     24
                                SELCTED BIBLIOGRAPHY

Audit Findings from First 18 Months of the Three Kulick Youth Opportunity Pilot Sites
Office of Inspector General, Office of Audit (Report No. 06-00-002-03-340), 2001.

David Brown, et. al. Barriers and Promising Approaches to Workforce and Youth
Development, National Youth Employment Coalition, 2001.

C.S. Reichardt & C.A. Bormann. Using Regression Models to Estimate Program Effects.
In J.S. Wholey, H.P. Hatry & K.E. Newcomer (eds.). Handbook of Practical Program
Evaluation (pp. 417-455). San Francisco: Jossey-Bass.

Comprehensive Reponses to Youth at Risk: Interim Findings from the SafeFutures
Initiative, U.S. Department of Justice, Office of Justice Programs, Office of Juvenile Justice
and Delinquency Prevention (NCJ 183841), 2000.

Evaluation of the School-to Work/Out of School Youth Demonstration, US Department of
Labor, Employment and Training Administration (Research and Evaluation Report Series 00-
D), 2000.

Employment and Training for Court-Involved Youth, U.S. Department of Justice, Office of
Justice Programs, Office of Juvenile Justice and Delinquency Prevention, undated.

National Job Corps Study: The Impact of Job Corps on Participants’ Employment and
Related Outcomes, U.S. Department of Labor, Employment and Training Administration
(Research and Evaluation Monograph Series 01-K), 2001.

1998 National Youth Gang Survey, U.S. Department of Justice, Office of Justice Programs,
Office of Juvenile Justice and Delinquency Prevention (NCJ 182210), 2000.

OJJDP Research: Making a Difference for Juveniles, Office of Juvenile Justice and
Delinquency Prevention (NCJ 177602), 1999.

Predictors of Youth Violence, U.S. Department of Justice, Office of Justice Programs, Office
of Juvenile Justice and Delinquency Prevention (NCJ 179065), 2000.

Preventing Adolescent Gang Involvement, U.S. Department of Justice, Office of Justice
Programs, Office of Juvenile Justice and Delinquency Prevention (NCJ 182210), 2000.

Prevention of Serious and Violent Juvenile Offending, U.S. Department of Justice, Office of
Justice Programs, Office of Juvenile Justice and Delinquency Prevention (NCJ 178898), 2000.

R. L. Scheaffer, W. Mendenhall, and L. Ott. Elementary Survey Sampling. PWS-KENT
Publishing Company, fourth edition, 1990.




                                               25
  APPENDIX C


AGENCY RESPONSE




      26
